      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                         Washington, D.C. 20201




May 20, 2010

TO:            Yvette Roubideaux, M.D., M.P.H.
               Director
               Indian Health Service


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Audit of the Indian Health Service Fiscal Year 2005 Cost Statement for the
               Navajo Area Office (A-07-08-02721)


The attached final report provides the results of our audit of the Indian Health Service cost
statement for fiscal year 2005 for the Navajo area office.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov.
Please refer to report number A-07-08-02721 in all correspondence.


Attachment

cc:
Marilyn Tavenner
Acting Administrator and Chief Operating Officer
Centers for Medicare & Medicaid Services
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


 AUDIT OF THE INDIAN HEALTH
  SERVICE FISCAL YEAR 2005
  COST STATEMENT FOR THE
    NAVAJO AREA OFFICE




                      Daniel R. Levinson
                       Inspector General

                          May 2010
                        A-07-08-02721
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 600 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization. IHS Headquarters (Headquarters) has overall responsibility for IHS programs, and
12 area offices located throughout the United States ensure that individual areas’ health care
needs are met.

Section 1880 of the Social Security Act (the Act) authorizes Medicare reimbursement to IHS
hospitals and skilled nursing facilities. Section 1911 of the Act authorizes Medicaid
reimbursement to all IHS providers for covered services. IHS providers use all-inclusive
reimbursement rates to bill for certain Medicare and Medicaid services provided in IHS and
tribal facilities. IHS develops these rates annually using financial and patient data from IHS and
certain tribal hospitals. The financial data are obtained from the hospitals’ Medicare cost reports,
and the patient data are obtained from IHS’s patient workload systems.

An IHS contractor prepares separate Medicare cost statements for Headquarters and most of the
area offices. (IHS cost statements use obligations rather than costs because, according to IHS
officials, IHS’s accounting system was not designed to accumulate costs.) The Headquarters and
area-office cost statements identify the portion of obligations from Headquarters and the area
offices that is allowable under Medicare and allocable to IHS providers. Allowable
Headquarters obligations are allocated to each area office. These obligations, combined with the
area offices’ own obligations, are then allocated among all IHS providers. Medicare cost
statements are subject to the provisions of 42 CFR part 413 and the Medicare Provider
Reimbursement Manual, parts I and II, which establish standards for, among other things, the
allowability and allocability of costs.

IHS included approximately $105.2 million of obligations in its fiscal year (FY) 2005 cost
statement for the Navajo area office. Our audit covered approximately $29.1 million of
obligations that IHS reported in the cost statement as allocable to IHS providers.

OBJECTIVE

Our objective was to determine whether selected obligations reported in the FY 2005 cost
statement for the Navajo area office were allowable under Medicare requirements.

SUMMARY OF FINDINGS

Of the $29,065,369 in obligations that was reported in the FY 2005 cost statement for the Navajo
area office and that we reviewed, $2,534,597 was unallowable: $2,523,122 for duplicate supply
costs and $11,475 for overstated depreciation costs. The cost statement also included $4,763,573




                                                 i
for unsupported salaries, fringe benefits, and related obligations on which we could not express
an opinion.

For the $2,534,597 in unallowable costs:

   •    Contrary to Federal requirements, IHS overstated supply costs by $2,523,122 in the
        FY 2005 cost statement. Specifically, IHS reported duplicated costs caused by an error in
        the cost statement calculations. This error occurred because IHS did not have adequate
        oversight of the cost statement creation process. IHS did not perform a detailed review of
        obligations; rather, it performed a comparative analysis from 1 year to the next, focusing
        on variances in obligations.

   •    Contrary to Federal requirements, IHS overstated equipment depreciation by $11,475 in
        the FY 2005 cost statement. Specifically, IHS erroneously reported depreciation for
        some items that were already fully depreciated. IHS did not have adequate policies and
        procedures to determine when items were fully depreciated.

In addition, and contrary to Federal requirements, IHS did not properly support its allocation of
$4,763,573 for salaries, fringe benefits, and related obligations in the FY 2005 cost statement.
IHS used unverifiable estimates to allocate obligations related to employees who worked on
multiple activities. IHS did not have policies and procedures to ensure that its estimates were
supported with cost information that was current, accurate, and in sufficient detail. Because IHS
had no verifiable support for its estimates, we were unable to express an opinion on the
$4,763,573. The remaining $21,767,199 of the $29,065,369 in obligations that we reviewed was
allowable.

RECOMMENDATIONS

We recommend that IHS:

    •   adjust its next cost statement for the Navajo area office for $2,534,597 of unallowable
        costs ($2,523,122 of duplicate supply costs and $11,475 of unallowable depreciation)
        that were reported in the FY 2005 cost statement;

    •   review the Navajo area office’s cost statements before and after FY 2005 and adjust its
        next cost statement for duplicated costs caused by contractor errors in the cost statement
        calculations and for unallowable depreciation that was reported;

    •   strengthen its policies and procedures to ensure that depreciation is not reported for items
        that are fully depreciated;

    •   work with the Centers for Medicare & Medicaid Services to determine how much of the
        $4,763,573 for salaries, fringe benefits, and related obligations reported in the Navajo
        area office’s FY 2005 cost statement was allowable and adjust its next cost statement for
        obligations that are determined to be unallowable; and



                                                 ii
    •   develop and implement policies and procedures to ensure that estimates used to allocate
        obligations in cost statements are supported with cost information that is current,
        accurate, and in sufficient detail.

AUDITEE COMMENTS

In written comments on our draft report, IHS concurred with all of our recommendations but
expressed concern about the feasibility of providing sufficient records before FY 2005. IHS also
described corrective actions it planned to implement. IHS’s written comments appear in their
entirety as the Appendix.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .................................................................................................... 1
              Indian Health Service .................................................................................. 1
              Medicare and Medicaid Reimbursement .................................................... 1
              Cost Statements for Headquarters and Area Offices .................................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .................................................. 3
               Objective ..................................................................................................... 3
               Scope ........................................................................................................... 3
               Methodology ............................................................................................... 3

FINDINGS AND RECOMMENDATIONS ................................................................... 4

          DUPLICATE COSTS ADDED TO THE AREA OFFICE
            COST STATEMENT......................................................................................... 4

          OVERSTATED DEPRECIATION ........................................................................ 5

          ALLOCATIONS BASED ON UNVERIFIABLE ESTIMATES........................... 5

          RECOMMENDATIONS ........................................................................................ 7

          AUDITEE COMMENTS........................................................................................ 7

APPENDIX

          AUDITEE COMMENTS




                                                                    iv
                                              INTRODUCTION

BACKGROUND

Indian Health Service

The Indian Health Service (IHS), an agency in the U.S. Department of Health & Human
Services, delivers clinical and preventive health services to American Indians and Alaska
Natives. IHS provides care in more than 600 health care facilities, including hospitals and
outpatient clinics. An IHS facility can be operated by IHS, an Indian tribe, or a tribal
organization.

IHS Headquarters (Headquarters) has overall responsibility for IHS programs. Twelve area
offices located throughout the United States carry out the IHS mission by overseeing and
administering programs that are designed to address individual areas’ specific health care needs.
Each area office provides regional support services to health care providers (e.g., hospitals,
outpatient clinics, and community health centers) within its jurisdiction.

One of the 12 area offices is the Navajo area office in Window Rock, Arizona. This area office
oversees the delivery of health care to approximately 239,000 Native Americans throughout the
Navajo designated geographical area.

Medicare and Medicaid Reimbursement

IHS health care facilities receive Federal reimbursement for certain Medicare and Medicaid
services. At the Federal level, the Centers for Medicare & Medicaid Services (CMS) administers
the Medicare and Medicaid programs. The Indian Health Care Improvement Act (IHCIA) of
1976 (P.L. No. 94-437) added section 1880 of the Social Security Act (the Act) to authorize
reimbursement to IHS hospitals and skilled nursing facilities for services provided to
Medicare-eligible individuals. Further, section 432 of the Medicare, Medicaid, and SCHIP
[State Children’s Health Insurance Program 1] Benefits Improvement and Protection Act of 2000
(P.L. No. 106-554) and section 630 of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003 (P.L. No. 108-173) amended section 1880 of the Act to authorize
payments for Medicare Part B services provided in certain IHS hospitals. The IHCIA also added
section 1911 of the Act to authorize Medicaid reimbursement to all IHS providers for covered
services.

IHS providers use all-inclusive reimbursement rates to bill for certain Medicare and Medicaid
services provided in IHS and tribal facilities. IHS develops these rates annually using financial
and patient data from IHS and certain tribal hospitals. The financial data are obtained from the
hospitals’ Medicare cost reports, and the patient data are obtained from IHS’s patient workload
systems.




1
    The program was renamed the Children’s Health Insurance Program as of February 4, 2009.


                                                         1
IHS calculates one set of reimbursement rates for the lower 48 States and one set of rates for
Alaska: 2

    •    Medicare outpatient per-visit rate,

    •    Medicare Part B inpatient ancillary per diem rate,

    •    inpatient hospital per diem rate (excluding physician/practitioner services), and

    •    outpatient per-visit rate (excluding Medicare). 3

Cost Statements for Headquarters and Area Offices

IHS contracts with Eighteen Nineteen Group, Inc. (Eighteen Nineteen), to prepare separate cost
statements for Headquarters and 10 of the 12 area offices, including the Navajo area office. 4 IHS
cost statements use obligations rather than costs because, according to IHS officials, IHS’s
accounting system was not designed to accumulate costs. CMS and IHS agreed that IHS could
use obligations instead of costs when preparing its cost statements.

The Headquarters and area-office cost statements identify the portion of obligations from
Headquarters and the area offices that is allowable under Medicare and allocable to IHS
providers. Allowable Headquarters obligations are allocated to the 12 area offices. These
obligations, combined with the area offices’ own obligations, are then allocated among all IHS
providers. Headquarters and area office obligations that are allocated to IHS hospitals are
included in each hospital’s cost report. Errors in these cost reports can affect the calculation of
the all-inclusive reimbursement rates described above.

Medicare cost statements are subject to the provisions of 42 CFR part 413 and the Medicare
Provider Reimbursement Manual (the Manual), parts I and II, which establish standards for,
among other things, the allowability and allocability of costs.

IHS included approximately $105.2 million of obligations in its FY 2005 cost statement for the
Navajo area office.

We reviewed the FY 2005 cost statement for the Navajo area office, the subject of this audit.
Separate reports will address the FY 2005 cost statements for Headquarters (A-09-07-00054), the
Phoenix area office (A-09-07-00086), and the Oklahoma City area office (A-06-07-00080).



2
 The all-inclusive reimbursement rates developed by IHS using the fiscal year (FY) 2005 Medicare cost reports
were finalized and used for reimbursement purposes in FY 2007.
3
 The inpatient hospital per diem and the outpatient per-visit rates are the encounter rates applicable to Medicaid
services.
4
  Cost statements are not prepared for the California and Portland area offices because the areas for which they are
responsible do not have any IHS hospitals.


                                                          2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected obligations reported in the FY 2005 cost
statement for the Navajo area office were allowable under Medicare requirements.

Scope

IHS included approximately $105.2 million of obligations in its FY 2005 cost statement for the
Navajo area office. Our audit covered approximately $29.1 million of obligations that IHS
reported in the cost statement as allocable to IHS providers in the Navajo area and to other areas.

We did not perform a detailed review of IHS’s internal controls. We limited our review to
obtaining an understanding of IHS’s (including the Navajo area office’s) and
Eighteen Nineteen’s policies and procedures related to the accounting, accumulation, and
reporting of obligations. We performed our fieldwork at the Navajo area office in Window
Rock, Arizona.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed the explanatory notes for the cost statement;

   •    reviewed IHS’s reclassifications and adjustments of obligations, including salaries, fringe
        benefits, and related obligations;

   •    reviewed a judgmental sample of obligations, including depreciation, supplies, and
        training;

   •    reviewed the method that IHS used to allocate the Navajo area office’s obligations to IHS
        providers in the Navajo area and to other areas; and

   •    interviewed Navajo area office and Eighteen Nineteen officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                 3
                               FINDINGS AND RECOMMENDATIONS

Of the $29,065,369 in obligations that was reported in the FY 2005 cost statement for the Navajo
area office and that we reviewed, $2,534,597 was unallowable: $2,523,122 for duplicate supply
costs and $11,475 for overstated depreciation costs. The cost statement also included $4,763,573
for unsupported salaries, fringe benefits, and related obligations on which we could not express
an opinion. The remaining $21,767,199 of the $29,065,369 in obligations that we reviewed was
allowable.

DUPLICATE COSTS ADDED TO THE AREA OFFICE COST STATEMENT

Federal requirements (the Manual, part I, § 2304) state: “Cost information as developed by the
provider must be current, accurate, and in sufficient detail to support payments made for services
rendered to beneficiaries.”

IHS overstated supply costs by $2,523,122 in the FY 2005 cost statement because it reported
duplicated costs caused by an error in the cost statement calculations. In an adjustment to the
cost statement, Eighteen Nineteen added costs that had already been included in the Navajo area
obligations.

The Navajo area office includes in its cost statement obligations incurred by the Gallup Regional
Supply Service Center (Supply Center) for providing supplies, typically drugs, to IHS and tribal
service units. 5 Although the Supply Center is located within the Navajo area, the service units it
supplies are located both within and outside that area. Through the allocation of the Navajo area
office’s obligations in its cost statement, the total obligations incurred in operating the Supply
Center are also allocated among all service units that receive supplies, including those outside
the Navajo area. When a service unit within the Navajo area purchases supplies, the related
obligations appear in the Navajo area obligations used to create the area office cost statement.
However, because service units outside of the Navajo area operate on a different accounting
system, their obligations relating to supplies received from the Supply Center do not appear in
the Navajo area obligations used to create the cost statement. To properly identify these
obligations, the Navajo area office’s standard cost statement procedures called for
Eighteen Nineteen to add to the cost statement, through an adjustment, those obligations incurred
on behalf of service units outside the Navajo area. Without such an adjustment, the total
obligations incurred in operating the Supply Center could not be accurately allocated to the
appropriate service units.

While calculating the adjustment, Eighteen Nineteen inadvertently listed the Winslow service
unit (Winslow) as a non-Navajo area service unit and included Winslow’s supply obligations in
the adjustment. Because Winslow is a service unit within the IHS Navajo area, its obligations
for supplies were already included in the Navajo area obligations. During our fieldwork,
Eighteen Nineteen notified us of this error in the adjustment, which affected several years’ cost
statements, and made necessary corrections in all relevant documentation.

5
 The term “service unit” applies to any location, such as a hospital, clinic, or doctor’s office, where medical services
are performed.



                                                           4
This error occurred because IHS did not adequately oversee the cost statement creation process.
IHS did not perform a detailed review of obligations; rather, it performed a comparative analysis
from 1 year to the next, focusing on variances in obligations.

OVERSTATED DEPRECIATION

Federal regulations (42 CFR § 413.20) require that “providers maintain sufficient financial
records and statistical data for proper determination of costs” and that cost statements be
submitted “on an annual basis with reporting periods based on the provider’s accounting year.”
CMS reiterated these requirements in the Manual. The Manual, part I, section 2304, states that
cost information as developed by the provider must be current, accurate, and in sufficient detail
to support payments made for services provided to beneficiaries. In addition, part II, section
102, states: “For cost reporting purposes, Medicare requires submission of annual reports
covering a 12-month period of operations based upon the provider’s accounting year.”

Federal regulations (42 CFR § 413.134(a)) also state that depreciation on equipment used in the
provision of patient care is an allowable cost. Among other requirements, the depreciation must
be based on the historical cost of the asset and prorated over the estimated useful life of the asset.
Further, 42 CFR § 413.144(b) states that if an asset has become fully depreciated under
Medicare, further depreciation is not appropriate or allowable, even though the asset may
continue in use.

The Manual, part I, section 116, paragraph A, states that regardless of the method of depreciation
being used, an asset should not be depreciated below its salvage value. 6

Contrary to Federal requirements, IHS reported $11,475 for depreciation on some equipment
items that were fully depreciated. Consequently, the items were depreciated below their salvage
value. 7 Rather than calculating a partial year’s depreciation for items that were purchased during
the year, IHS calculated a full year’s depreciation in the first and last years of the items’ useful
lives without regard to when the items were purchased. IHS reported the additional depreciation
because it did not have adequate policies and procedures to determine when items were fully
depreciated.

ALLOCATIONS BASED ON UNVERIFIABLE ESTIMATES

Federal regulations state that the cost principles were developed to ensure that costs are reported
according to actual use of services. The regulations (42 CFR § 413.5(a)) state: “[T]he share of
the total institutional cost that is borne by the [Medicare] program is related to the care furnished
beneficiaries so that no part of their cost would need to be borne by other patients. Conversely,
costs attributable to other patients of the institution are not to be borne by the program.”


6
 Salvage value is the estimated amount expected to be realized upon the sale or other disposition of the depreciable
asset when it is no longer useful to the provider.
7
    IHS sets the salvage value for its equipment at zero.


                                                            5
Federal regulations (42 CFR § 413.5(b)) also explain that one objective of the principles of
reimbursement is “[t]hat there be a division of the allowable costs between the beneficiaries of
this program [Medicare] and the other patients of the provider that takes account of the actual use
of services by the beneficiaries of this program and that is fair to each provider individually.”

CMS reiterated this principle in section 2200.1 of part I of the Manual: “Principle of Cost
Apportionment—Total allowable costs of a provider are apportioned between [Medicare]
program beneficiaries and other patients so that the share borne by the program is based upon
actual services received by program beneficiaries.”

Furthermore, Federal regulations (42 CFR § 413.24(a)) state: “Providers receiving payment on
the basis of reimbursable cost must provide adequate cost data. This must be based on their
financial and statistical records which must be capable of verification by qualified auditors.” In
addition, 42 CFR § 413.24(c) states: “The requirement of adequacy of data implies that the data
be accurate and in sufficient detail to accomplish the purposes for which it is intended.”

The Manual, part I, section 2304, states that cost information as developed by the provider must
be current, accurate, and in sufficient detail to support payments made for services provided to
beneficiaries.

Contrary to Federal regulations and the Manual, IHS did not properly support its allocation of
$4,763,573 for salaries, fringe benefits, and related obligations reported in the FY 2005 cost
statement. Specifically, IHS used unverifiable estimates to allocate obligations related to
employees who worked on multiple activities:

   •   IHS reported $3,214,623 for Diabetes Program employees who provided administrative
       support for the prevention and treatment of diabetes throughout the Navajo area,
       including patient-related clinical oversight. The Diabetes Program director estimated that
       her staff spent 60 percent of its time on Medicare-reimbursable activities. We could not
       verify the estimates using the documentation that IHS provided.

   •   IHS reported $1,548,950 for Office of Environmental Health and Engineering employees
       who performed patient-related occupational health and safety activities. The director of
       the Office of Environmental Health and Engineering estimated that his staff spent 60
       percent of its time on Medicare-reimbursable activities. We could not verify the
       estimates using the documentation that IHS provided.

These deficiencies occurred because IHS did not have policies and procedures to ensure that its
estimates were supported with cost information that was current, accurate, and in sufficient
detail. Because IHS had no verifiable support for its estimates, we were unable to express an
opinion on the $4,763,573.




                                                6
RECOMMENDATIONS

We recommend that IHS:

    •   adjust its next cost statement for the Navajo area office for $2,534,597 of unallowable
        costs ($2,523,122 of duplicate supply costs and $11,475 of unallowable depreciation)
        that were reported in the FY 2005 cost statement;

    •   review the Navajo area office’s cost statements before and after FY 2005 and adjust its
        next cost statement for duplicated costs caused by contractor errors in the cost statement
        calculations and for unallowable depreciation that was reported;

    •   strengthen its policies and procedures to ensure that depreciation is not reported for items
        that are fully depreciated;

    •   work with CMS to determine how much of the $4,763,573 for salaries, fringe benefits,
        and related obligations reported in the Navajo area office’s FY 2005 cost statement was
        allowable and adjust its next cost statement for obligations that are determined to be
        unallowable; and

    •   develop and implement policies and procedures to ensure that estimates used to allocate
        obligations in cost statements are supported with cost information that is current,
        accurate, and in sufficient detail.

AUDITEE COMMENTS

In written comments on our draft report, IHS concurred with all of our recommendations but
expressed concern about the feasibility of providing sufficient records before FY 2005. IHS also
described corrective actions it planned to implement. IHS’s written comments appear in their
entirety as the Appendix.




                                                 7
APPENDIX
                                                                                                            Page 1 of 2



                    APPENDIX: AUDITEE COMMENTS


   DEPARTM ENT OF HEALTH & HUMAN SERVICES 	                                   Public Health S"",iee


                                                                              Indian Health S",,,,I<;II 

                                                                              Rockville MD 20852 



                                      MAR SO1010

TO:          Inspector General
                                           "
FROM:        Director

SUBJECT: 	 Response to Office o[ lnspector General Draft Report "Audit of the Indian
             Health Service Fiscal Year 2005 Cost Statement for the Navajo A rea Office
             (A-07-08-02721 )," issued November 27. 2009


The Indian Health Service (JHS) n:viewtld the Department of Heulth and Human Service' s
Office of Inspector General (DIG) draft report "Audit of the IHS Fiscal Year (FY) 2005 Cost
Statement for the Navajo Area Office (A-07-08-02721)." The following responses 10 each
recommendation include any corrective actions that have been implemented.

OIG Recommendation: "1m/ian Heullh Service ad/usl its nexl COSI statement jor the Navajo
Area Office for $2,534,597 oluna/lowable costs ($2,523,122 afduplicate supply costs and
$11 ,475 olunallowable depredation) Ih(ll were reported in Ihe FY 2005 cost stolement. "

IHS Response: Concur. The details in the audit report appear to support the findings , and the
recommendation appears reasonable. We agree lHS should adjust as recommended in its next
Medicare cost statement for the Navajo Area Office.

OIG Recommendation: "nw IHS review the Navajo Area Office'S cost statements before and
after FY 2005 and adjust its next co~'1 Slalement for duplicated costs cau~'ed by contractor errors
in the cost statement calculations andlor unallowable depreciation fhal was reported. "

IHS Response: Concur. The recommendation appears reasonable, although it is unclear which
Navajo Area Office Medicare cost statements issued prior to FY 2005 should be reviewed. In
addition, we note that given records management requiremt:nts, and tht: systems in place pri or to
FY 2005, it may not be feasible for the Area Office to provide records sufficient to support a
review o f Medicare cost statemcnts issued prior to FY 2005.

We agree that IHS should review the Navajo Area Office's Medicare cost statements issued after
FY 2005 and adjust its next Medicare cost statement fo r any identified duplicated costs caused
by contractor errors in the cOSt statement calculations and for any id entified unallowable
depreciation, if such adjustments were not already made after the FY 2005 Medicare cost
statement.
                                                                                                     Page 2 of2




Page 2 - Inspector General


01G Recommendation. "The IHS sfrengrhen its policies and procedures 10 ensure thai
depreciation is not reported/or items Ihal are fully depreciated "

IHS Response: Concur. 'Ibe detai ls in the aud it report support the fin dings, and the
recommendation appears reasonable. We agree IHS should adjust, as recommended, in jt~ next
Medi care cost statement for the Navajo Area Office.

OIG Recommendation: "The IHS work with the Centers/or Medicare and Medicaid Services /0
de/ermine how much ofthe $4, 763,573/or salaries. fringe benefilS, and relaled obJigalion.~
reponed in the Navajo Area Office'S FY 2005 coslYWl emenlll'us allowable and adjus[ i/~' next
cosl statemen! for obligations that OfC de/ermined (0 be unallowable. "

IHS Response: Concur. Although FY 2005 Medicare cost statement work papers might not
provide documentation of allowable costs, II-iS's position based on interviews with stafT is that
the costs claimed are reasonable. However, the IHS contractor will require, on all future
Medicare cost report statements, signed time estimates by appropriate staff to indicate all
allowable and non-allowable cost allocations. These procedures will ensure availability of
sufficient cost detllil and will hel p ensure cost report accuracy.

DIG Recommendalion: "Develop and implement policies and procedures fo ensure lhal
estimates used 10 allocate obligations in cosl statements are supporled with cost information thol
is current, accurate, and in sufficient detail. ..

IHS Response: Concur. The lHS contractor receives an ollicial financial report/accounting data
from the HHS Unified Financial Management System. This infonnation from the facility, along
with specific changes that would have affected cost during the year, is used to prepare cost
reports in accordance wi th Medicare cost principles and regulations using a "Method E" format.

The IHS headquarters certifies the data for cost reports and each hospital signs off on the final
cost report submitted to Centers for Medicare and Medicaid Services and/or the Medicare fiscal
intennediary. These procedures provide sufficient detail and will help ensure cost report
acc uracy.

If you have any questions concerning IHS's response to OIG's report (A-07-08-0272 I ), please
contact Mr. Carl Harper, Director of the Office of Resource Access and Part nerships, at
(30\) 443-32\6.



                                                   Yvette Roubideaux, M.D., M.P.H.
